IN THE SUPREME COURT OF THE UNITED STATES
No. 20-1006
CITY OF HAYWARD, A MUNICIPAL CORPORATION, et al.
Petitioners,
v.
JESSIE LEE JETMORE STODDARD-NUNEZ,
Respondent.

CERTIFICATE OF SERVICE
I, Ayana C. Curry, being duly sworn according to law and being over the age
of 18, upon my oath depose and say that:
I am retained by Counsel of Record for Respondent.
That on the 10th day of March, 2021, I caused to be served the within Letter
to the Clerk of the Court requesting an extension of time to respond to the petition
for writ of certiorari in the above-captioned matter upon:
Michael S. Lawson
Joseph E. Brick
City of Hayward
777 B Street, 4th Floor
Hayward, CA 94541

Michael L. Fox
Duane Morris LLP
One Market Plaza
Spear Tower, Suite 2200
San Francisco, CA 94105

by sending three copies of same, addressed to each addressee respectively, and
enclosed in a properly-addressed wrapper, through the Federal Express Service,

postage prepaid. In addition, the letter request has been submitted through the
Court’s electronic filing system.
All parties required to be served have been served.
That on the same date as above, I sent to this Court three copies of the letter
request through Federal Express, postage prepaid with a self-addressed postageprepaid envelope, for filing.
I declare under penalty of perjury that the foregoing is true and correct; this
document was executed on the 10th day of March, 2021 in Oakland, California.

/s/ Ayana C. Curry
Ayana C. Curry

